No.

In The

®ntteti States Supreme Court
DR. LILLIE M. COLEY, PHD
Petitioner,
v.
NEW JERSEY SUPREME COURT
Respondent (s).

On Petition for a Writ of Certiorari to
United States Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Lillie M. Coley, PhD

1

QUESTIONS PRESENTED

1. Can the court deny Full, Faith and Credit to a valid sister state Order with a
Certify DNA attached dated April 18, 2011 and not be in violation of 28 U.S.C.
§ 1738 since no due process occurred?

2. Can an Appeal Support a denial of valid sister state court order with no due
process and not be violation of Civil Rights and The 14th Amendment of
the United States Constitution which gives everyone a right to due process
of law.

2

List of Parties
All Parties appeal in the caption of the case on the cover page.
Lillie M. Coley, PhD
Vs.
NEW JERSEY Supreme Court

Related Cases
Pennsylvania April 18, 2011 Order w/DNA Attached by Court - Appendix B

3

TABLE OF CONTENTS
QUESTIONS PRESENTED

2

LIST OF PARTIES

3

TABLE OF CONTENTS

4

TABLE OF AUTHORITIES

5

ORDERS & OPINIONS BELOW

6

STATEMENT JURISDICTION

6

CONSTITUTIONAL PROVISION

7

STATEMENT OF THE CASE

9

REASONS FOR GRANTING THE WRIT

12

CONCLUSION

17

APPENDIX

19

4

TABLE OF AUTHORITIES AND CASES
CASES:
1.

14,15

Armstrong v Mango.C.S.545(1965)

2. Grennis v Ordean,234 U.S.384,394

15

3. Birl v. Estelle, 660 F.2d 592 (1981)

14

4.

City of Cleburne, Texas v Cleburne Live Center,•473 U.S.432,439(1985)

12

5.

Haines v. Kerner, 404 US at 520 (1980)........................................................

14
9

6.

Griffen v. Griffen, 327 U.S. 220, 66 S. Ct. 556, 90 L. Ed. 635

7.

Reno v. Flores, 507 U.S. 292, 301-02 (1993)

8.

United States v. Lee, 106 US 196,220 [1882]

9.

Evans v. C. Woods, Inc., No. 12-99-00153-CV

19,30

10.

Adam v. Saenger, 303 U. S. 59, 62..................

10,17

11.

Milliken, supra, at 462

17

12.

Baker v. General Motors Corp., 522 U. S. 222, 233

16

13.

King v. Taylor, 188 N.C. 450, 451, 124 S.E. 751, 751

9

14.

Ex parte Seidel, 39 S.W.3d 221, 225

15.

Geil v Commission on Judicial qualifications, (1973)10 Cal.3d. 270,286

16
14

10,16
15

16. Wolff v McDonnell,418 U.S.539,557-558,94 S.Ct,2963,2975-2976,41 L.E.2d 935(1974).
Phillips v Commissioner of internal revenue, 283 U.S.589,596-597,51 S.Ct.608,611-612,75
L.Ed.l289(1931). Dent v West Virginia, 129 U.S.114,124-125,9 S.Ct.231,234,32
L.Ed.623(1889)

17

17. Grannis v Ordean, 234 U.S.385,394,34 S Ct.779,783,58 L.Ed.l363(1914). Mathews v
Eldridge.424 U.S.319,333,96 SCt.,893.47 L.Ed.2d 18(1976).................................. .......
5

14

CONSTITUTIONAL PROVISIONS ECT:

1. U.S. Constitution , Amend. XIV

9,12

2. 28 U.S.C. §1254 (1)

6

3. 42 U.S.C. Section 2000e et sec

9

4. 28 U.S.C. § 1738

2,12

5. 28 U.S.C. Rule 455 and 455(A)

15

OPINIONS BELOW
Appendix A - New Jersey Supreme Court Petition for Review - Sept. 25, 2020;
Appendix C - Appellant Division Opinion - A-227-15

Order Seeking Review
New Jersey Supreme Court Petition for Review - Sept. 25, 2020 - Appendix A;

STATEMENT OF THE BASIS FOR JURISDICTION
This court has jurisdiction pursuant to 28 U.S.C.1257(a). Petitioner seeks
review of the New Jersey Supreme Court Petition for Review dated Sept. 25, 2020.
There was no opinion provided by New Jersey Supreme Court. This court has
jurisdiction on a full, faith and credit with constitutional issues. 28 U.S.C. §1254
(1). There is diversity of citizenship between the parties and the amount in

6

controversy exceeds the sum of $100,000. The district court had jurisdiction in
cases and controversy under 28 U.S.C. §1332(a).

RELEVANT CONSTITUTIONAL PROVISION
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws. U.S. Const, amend. XIV.
The 14th Amendment of the United States Constitution gives everyone a
right to due process of law, which includes judgments that comply with the rules
and case law. Most due process, exceptions deal with the issue of notification. If, for
example, someone gets a judgment against you in another state without your
having been notified, you can attack the judgment for lack of due process of law. In
Griffen v. Griffen, 327 U.S. 220, 66 S. Ct. 556, 90 L. Ed. 635 pro se litigant won
his case in the Supreme Court.

Finally, “A writ of certiorari is a discretionary,

extraordinary writ—and is therefore never granted as a matter of right.” See,
e.g., King v. Taylor, 188 N.C. 450, 451, 124 S.E. 751, 751 (1924) (explaining that the
writ “is allowed only on a reasonable show of merits and that the ends of justice will
be thereby promoted”). Petitioner relies on the merits and duties of the father to
provide for the family, barring that, for the Court to step in and provide a fair legal
means to adjudicate his absence.

7

Full, Faith and Credit

Well settled case law declares that these materials should receive “the same full faith
and credit” in each state that they have in the state “from which they are taken.” Ex
parte Seidel, 39 S.W.3d 221, 225 (Tex. Crim. App. 2001). Noting the United States
Supreme Court has ruled on this issue in 577 U. S.

(2016), (US Supreme Court

granting), stated, “with respect to judgments, “the full faith and credit obligation is
exacting.

Baker v. General Motors Corp., 522 U. S. 222, 233 (1998). “A final

judgment in one State, if rendered by a court with adjudicatory authority over the
subject matter and persons governed by the judgment, qualifies for recognition
throughout the land.” Ibid. “Consequently, before a court is bound by [a] judgment
rendered in another State, it may inquire into the jurisdictional basis of the foreign
court’s decree.” Ibid. That jurisdictional inquiry, however, is a limited one. “[I]f the
judgment on its face appears to be a ‘record of a court of general jurisdiction, such
jurisdiction over the cause and the parties is to be presumed unless disproved by
extrinsic evidence, or by the record itself.’” Milliken, supra, at 462 (quoting Adam v.
Saenger, 303 U. S. 59, 62 (1938)). Here in this case, the Court rendered no hearing
and placed no weight on the Judgment, instead focusing on other matters that in
hindsight should not have been heard in light of the sister states prior Judgment or
until such time as the question of law is settled. Justice Holmes lamented in his
decision, “The Georgia judgment appears on its face to have been issued by a court
with jurisdiction, and there is no established Georgia law to the contrary.” Id.

8

Civil Rights Title VII of the Civil Rights Act of 1964,1983

42 U.S.C. Section 2000e et sec, and the Rehabilitation Act of 1973, 29 U.S.C. § 701,
when parties were denied due process subjected to gender discrimination,
retaliation, disability, and race. A civil right is an enforceable right or privilege,
which if interfered with by another gives rise to an action for injury. Discrimination
occurs when the civil rights of an individual are denied or interfered with because of
the individual's membership in a particular group or class. Various jurisdictions
have enacted statutes to prevent discrimination based on a person's race, sex
religion, age, previous condition of servitude, physical limitation, national origin,
political affiliation and in some instance’s sexual orientation.

STATEMENT OF THE CASE

PETITION FOR WRIT CERTIORARI
A judgment procured by fraud due to lack of Full, faith and credit can be attacked
at any time, in any court, either directly or collaterally and should be vacated along
with all proceeding order under that docket number FD-04-2874-12 and grant full,
faith and credit to valid sister state PA order dated April 18, 2011 with certified
DNA attached by the Judge. Petitioner respectfully prays that the writ of certiorari
review the judgments.

9

Introduction & Procedural History

In this High Profile Case involving a male performer money appears to be the
motive for the allegations. At its core, this case is about the corruption of a state’s
legal system at all levels. Corruption, concealment, bribery etc. determine the
outcome of cases not based on facts, evidence, or law of the land as no hearing or
fact finding took place. But, instead corrupt self-serving personal interests of
attorneys, and arms and agents of the state. This is a case alleging Defendant, New
Jersey Courts, through its agents and arms of the state, individually and together,
and or, in their official capacity, conspired and actively, denying full, faith and
credit to valid orders and DNA which is discriminatory in nature.
The State, its agents, arms of the state, and officers of the court, have though a
“breach of fiduciary duty”, “monopoly”, “intentional gross negligence a
matter of unconstitutional policy, conspired, aided, abetted and violated Petitioners
rights protected under the Constitution of the United States and State Constitution
and have violated federal laws as follows: denial of due process, denial/ignored full.
faith and credit for valid orders with DNA’s attached, failing to provide Equal
Protection under the law, and failing to provide “Honest Services”: causing
Petitioner to be wrongfully denied her damages under color of law, causing her
great financial loss and personal harm.

10

Moreover, the Court ignored the April 18, 2011 disestablishment, dispositive of
Graves's paternity and failed to grant Full Faith and Credit to the Pennsylvania
Order.

So, over many years the attorneys and Judges continue or allowed false
statements and court corruption with No Due Process in a high profile
case.

Relevant Procedural History
This case arises out of two jurisdictions but it begun in Philadelphia,
Pennsylvania

PUBLIC

Cases

of

Wanda

Satterthwaite

us

Robert

Graves(vacated 2011) and separate case of Wanda Satterthwaite vs S.Cfvoid
2011)).
On July 16, 2010 Wanda Satterthwatie requested two(2) men to submit to
a paternity test, Robert Graves and S.C. However, neither man showed up
because they were not served.

PA Judge issued two(2) orders: one for

Graves and one for S.C as stated above. Legally, S.C’s order depended upon
Graves.
Beginning on April 18, 2011, Graves is Disestablished, Support Order
Vacated and paternity dispositive per Pennsylvania Court Order (Appendix
B) on matter of Rymir. His name was removed from birth certificate in May
2011 while Rymir was still a minor.
Rymir moves to New Jersey while a minor during this time May 2011 due
to failing health of his mother, Wanda. Coley obtains full custody of Rymir
per New Jersey Court Order while he was still in high school.
11

On November 17, 2014

REASON FOR GRANTING THE WRIT

Petitioner asks the Court to take judicial notice of the fact that she is without
counsel, is not apt in the laws and legal procedures, and is not an attorney licensed
to practice law. Therefore, her pleadings must be read and construed liberally.
Understanding after the death of Petitioner’s attorney along with other
circumstances the court took advantage of Petitioner by not granting full, faith and
credit to sister state valid order. See Haines v. Kerner, 404 US at 520 (1980); Birl v.
Estelle, 660 F.2d 592 (1981). Further Petitioner believes that this court has a
responsibility and legal duty to protect any and all of Petitioner’s constitutional and
statutory rights. See, United States v. Lee, 106 US 196,220 [1882].

“No state shall deny any person within its jurisdiction the equal protection of the laws. U.S.
Constitution. Amend.XIV, 1. The constitution provision states above is essentially direction that all
persons similarly situated should be treated alike.” City of Cleburne.Texas v Cleburne Live
Center.473 U.S.432.439U985V

U.S. 134, 167 (1974). The Due Process Clause provides heightened protection
Against government interference with fundamental rights and liberty interests.
Reno v. Flores, 507 U.S. 292, 301-02 (1993).

12

A) Valid PA Order April 18. 2011 but Petitioner was DENIED Full, Faith
and Credit for Valid Order of April 18. 2011 DUE TO NO DUE PROCESS
Petitioner was Not given Full Faith and Credit for sister state PA Order dated
April 18, 2011 (Appendix B) due to No DUE PROCESS, but the male party
was given full, faith and credit for sister state PA Order which no longer have any
legal value since this order depended upon an Order that was VACATED.

28 li.S.C. § 1738, declares that these materials should receive “the same full faith
and credit” in each state that they have in the state “from which they are taken.”
The Court Ignore the Section 2 clause of the constitution that reads: “The Citizens
of each State shall be entitled to all Privileges and Immunities of Citizens in the
several States”.

By not granting Full, faith and Credit allowed fiction over facts to litigate the case
allowing more Fraud Upon the court and denying parties of their Human Rights
under the 14th Amendment. This legal right for sister state Pennsylvania Order
dated April 18. 2011 which is a valid Order with certified DNA attached by the
Judge.

13

The fundamental requirement of due process is an opportunity to be heard at a
meaningful time and in a meaningful manner. Armstrong v Manzo,308
U.S.545.552.85 S.Ct.1187.1191.14 L.Ed.2d 62(19651. See Grannis v Ordean,234
U.S.385.394.34 S Ct.779.783.58 L.Ed.l363(1914^.Mathews v EldridseA24
U.S.319.333.96 SCt..893.47 L.Ed.2d 18(1976).

U.S. 134, 167 (1974). The Due Process Clause provides heightened protection
Against government interference with fundamental rights and liberty interests.
Reno v. Flores, 507 U.S. 292, 301-02 (1993).

Well settled case law declares that these materials should receive “the same full faith
and credit” in each state that they have in the state “from which they are taken.” Ex
parte Seidel, 39 S.W.3d 221, 225 (Tex. Crim. App. 2001). Noting the United States
Supreme Court has ruled on this issue in 577 U. S.

(2016), (US Supreme Court

granting), stated, “with respect to judgments, “the full faith and credit obligation is
exacting.

Baker v. General Motors Corp., 522 U. S. 222, 233 (1998). “A final

judgment in one State, if rendered by a court with adjudicatory authority over the
subject matter and persons governed by the judgment, qualifies for recognition
throughout the land.” Ibid. “Consequently, before a court is bound by [a] judgment
rendered in another State, it may inquire into the jurisdictional basis of the foreign
court’s decree.” Ibid. That jurisdictional inquiry, however, is a limited one. “[I]f the
judgment on its face appears to be a ‘record of a court of general jurisdiction, such

14

jurisdiction over the cause and the parties is to be presumed unless disproved by
extrinsic evidence, or by the record itself.’” Milliken, supra, at 462 (quoting Adam v.
Saenger, 303 U. S. 59, 62 (1938)). Here in this case, the Court rendered no hearing
and placed no weight on the Judgment, instead focusing on other matters that in
hindsight should not have been heard in light of the sister states prior Judgment or
until such time as the question of law is settled. Justice Holmes lamented in his
decision, “The Georgia judgment appears on its face to have been issued by a court
with jurisdiction, and there is no established Georgia law to the contrary.” Id.
Denial of Due Process - The many denials by the trial court to invoke fear of
potentially being in civil contempt for an order that the petitioner was never
allowed to defend has kept the petitioner from having any fair and unbiased
hearings and doesn’t understand why the trial court has disregarded the
requirements of fairness in due process. 28 U.S.C. Rule 455 and 455(A). Act in
excess of judicial authority constitutes misconduct, particularly where a judge
deliberately disregards the requirements of fairness and due process. Geil v
Commission on Judicial qualifications. (1973)10 Cal.3d 270,286.

An Appeal cannot support a denial of valid sister state court order with no due
process and not be violation of Civil Rights and The 14th Amendment of the
United States Constitution which gives everyone a right to due process of law.

15

Due process is the principle of fairness in legal proceedings so that a person has the
right to know what action is being taken and has an opportunity to be heard. The
united state Supreme Court decision Armstrong v Mango.U.S.545(1965) which is a
fundamental requirement of due process is an opportunity to be heard.Grennis v
Ordean.234 U.S.384.394.

Based on the Appeal court allowing no due process it caused continuous
violations of abuse of power in the form of "malfeasance in office" or "official
misconduct", is the commission of an unlawful act, done in an official capacity,
which affects the performance of official duties. The law firms and corrupted
Judges went back with illegal orders to cover up no due process over
many years.

This abuse allowed the court to enter an illegal bond on Petitioner’s residential

a

properties where neither facts nor due process occurred. The Supreme (Hurt in The
S V'

l

Marburv v Madison. 5 U.S.137(1803) has stated that the Constitution is the
supreme law of the land, and any law that is repugnant is nulled and void from its
i

a

inception.

fi

3

5

The petition draws into question the constitutionality of the New Jersey’s Practice
of denying the right to be heard to an indigent pro se litigant before ^entering any

I
*
f

9

16

1

f
judgments that may result in the petitioners contempt citation, incarceration and
property loss.

*
V

f

The State Court has erred in the misdirection of law that discriminated against a

$

pro se litigant to be heard. The United States Supreme Court has consistently held

1

that some form of hearing is required before an individual is finally deprived of a
property interest. Wolff v McDonnell.418 U.S.539,557-558,94 S.Ct,2963.2975-

T
2976.41 L.E.2d 935(1974). See,e.g. Phillips v Commissioner of Internal Revenue.283
f

U.S.589.596-597.51 S.Ct.608.611-612.75 L.Ed,1289(1931). See also Dent v West
Virginia. 129 U.S.114.124-125.9 S.Ct.231.234.32 L.Ed.623(1889).

The right to be heard before being condemned to suffer grievous losses of any kind
even though it may not involve the stigma and hardships of a criminal conviction, is
a principle basic to our society. Joint Ant-Fascist Comm, u McGrath.341

T

U.S. 123.168.71 S.Ct.624.646.95 L.Ed.817(195U(Frankfurter.J.concurring).

CONCLUSION

There was not any due process of fact finding. The Court denying full, faith and
credit to full and effect order dated April 18, 2011 w/ certified DNA should receive

17

?

f

“the same full faith and credit” in each state that they have in the state “from which
they are taken.”

The petitioner hereby asks this Honorable Court to award the relief requested in
this Petition for Writ of Certiorari of not obtaining full, faith and credit of certify
order. And, all other legal and equitable relief as this Court may deem necessary.
Understanding after the

death of Petitioner’s

attorney

circumstances the court took advantage of Petitioner.

along with other

Allowing continuous

violations of abuse of power of no Due Process over many years.

I declare under penalty of perjury that the foregoing information above in this Writ is true and
correct belief and knowledge.

Petitioner, Lillie M. Coley, PhD

18

